Frank H. Scialdone
Email: fscialdone@mrrlaw.com
Direct Dial: (440) 424-0021
*Ohio state Bar Association-Certified
Specialist in Appellate Law

January 27, 2021
Via E-Filing
Scott S. Harris, Esq., Chief Clerk
Supreme Court of the United States
1 First Street, NE
Washington, DC 20543
Re:

Mary Stewart, Administrator of the Estate of Luke Stewart v. City of Euclid, Ohio, et al.
United States Supreme Court - Case No.: 20-951

Dear Mr. Harris:
This firm represents the Respondent City of Euclid in the above matter.
Pursuant to Rules 15.3 and 30.4, we herewith, on behalf of our client, request that the time to
respond to the Petition for a Writ of Certiorari be extended 30 days to, and including, March 18,
2021. The Petition was docketed on January 11, 2021. Consequently, the brief in opposition must
currently be filed by February 16, 2021.
Due to scheduling conflicts and the press of other business commitments as well as the
inefficiencies related to remotely working under COVID-19, counsel respectfully requests
additional time within which to prepare a responsive brief that properly addresses all of the issues
raised in the petition.
Counsel for the Petitioner does not object to this extension.
As indicated by the enclosed certificate of service, we have concurrently served a copy of this
letter upon counsel for the Petitioner electronically and by paper. We have electronically filed a
copy of this letter.
Thank you for your courtesy and prompt consideration of this request.

January 27, 2021
Page 2

Very truly yours,
MAZANEC, RASKIN & RYDER CO., L.P.A.
/s/Frank H. Scialdone
Frank H. Scialdone
FHS/mob
cc:
Devi M. Rao, Esq.
Easha Anand, Esq.
Sarah Gelsomino, Esq.
Jacqueline Greene, Esq.
Terry H. Gilbert, Esq.

CERTIFICATE OF SERVICE
A copy of the correspondence to Scott S. Harris, Esq., Chief Clerk, requesting an
extension to respond to the Petition for a Writ of Certiorari was filed electronically on January
27, 2021 and served via email and by depositing same in first-class United States mail, postage
prepaid, to the following:
Devi M. Rao
Counsel of Record
Roderick & Solange
MacArthur Justice Center
501 H Street NE, Suite 275
Washington, DC 20002
Devi.rao@macarthurjustice.org
Easha Anand
Roderick & Solange
MacArthur Justice Center
2443 Fillmore St., #380-15875
San Francisco, CA 94115
Easha.anand@macarthurjustice.org

Sarah Gelsomino, Esq.
Jacqueline Greene, Esq.
Terry H. Gilbert, Esq.
Friedman & Gilbert
50 Public Square, Suite 1900
Cleveland, OH 44113
sgelsomino@f-glaw.com
jgreene@f-glaw.com
tgilbert@f-glaw.com
Counsel for Petitioner

Counsel for Petitioner

/s/Frank H. Scialdone
JAMES A. CLIMER (0001532)
FRANK H. SCIALDONE (0075179)*
*(COUNSEL OF RECORD)
100 Franklin’s Row
34305 Solon Road
Cleveland, OH 44139
(440) 248-7906
(440) 248-8861 – Fax
Email: jclimer@mrrlaw.com
fscialdone@mrrlaw.com
Counsel for Respondent City of Euclid

